CERTIFICATE OF SERVICE
No. 21-214

SHANTUBHAI N. SHAH,
Petitioner,
v.
MEIER ENTERPRISES, INC.,
Respondent.

I hereby certify that I electronically filed the foregoing motion for extension of time
on this date with the Clerk of the Court for the United States Court of Appeals for
the Ninth Circuit using the Appellate Electronic Filing system, pursuant to order
dated July 19, 2021. I further certify that I served a copy of this motion via email
and by first class mail, postage prepaid, on the following:
Shantubhai N. Shah
6637 SW 88th Place
Portland, Oregon 97223
Shantu.shah@gmail.com
Petitioner
Dated September 13, 2021
/s/ Rebecca A. Watkins
Rebecca A. Watkins
Counsel of Record for Respondent

